August 6, 2013

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND
                            POST OFFICE OPERATIONS

                            MICHAEL J. AMATO
                            VICE PRESIDENT, ENGINEERING




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Alert – Delivery Data Transmission
                            (Report Number DR-MA-13-003)

This management alert presents an issue regarding delivery data transmission that
came to our attention during our review of the U.S. Postal Service’s scanning
technology (Project Number 13XS002DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Megan J. Brennan
    Ellis A. Burgoyne
    Scott R. Bombaugh
    Corporate Audit and Response Management
Delivery Data Transmission                                                                               DR-MA-13-003



Introduction

While collecting information about scanning technology, we came across a data
transmission problem that requires action. The U.S. Postal Service is deploying cell
phones for carriers to use in conjunction with Intelligent Mail™ Data (IMD)1 scanners to
provide wireless transmission of data.2 The cell phones will enable transmittal of the
IMD’s delivery scan information to customers within about 15 minutes of the actual
package delivery scan event — the same amount of time that it takes other package
delivery companies.

The Postal Service has been proactive in investing in cell phones as an interim solution
for providing real-time delivery information. The cell phone and IMD scanner
combination is an interim step between the stand-alone Intelligent Mail Device
Acquisition System (IMDAS) and a fully integrated next generation, single device
scanner. This step is a critical and necessary enhancement for providing the Postal
Service with real-time scanning capability in order to remain competitive and grow its
package business. The Postal Service has no established date for purchasing the single
device scanner.

Conclusion

Providing cell phones for carriers has been a huge undertaking for the Postal Service
and it has made tremendous strides. However, the Postal Service has not been able to
transmit all package delivery data3 collected by carriers because phones were not
always paired with a scanner (ranging from about 55 percent to 29 percent of the time,
over a 10-day deployment). This occurred because scanners do not have the proper
wireless connection4 to the associated cell phone each day to ensure data is
transmitted. The ability to monitor these carrier connections is currently limited. Without
this connectivity capability, the Postal Service could be at a competitive disadvantage
because it cannot provide real-time delivery information to its customers. This could
cause a loss of the parcel market share and in revenue as well as adversely impact its
brand image.




1
  A handheld scanner with a barcode reader and built-in imager.
2
  In November 2012, a Decision Analysis Report was approved for $26.2 million to purchase and deploy
173,310 clamshell cell phones (cell phones) to rural and city carriers to provide customers with near real-time delivery
information. By the fall of 2013, carriers will use the cell phones along with the IMD scanners to scan packages on
about 80 percent of 211,911 letter carrier routes. Deployment is ongoing and is scheduled to conclude by the end of
fiscal year 2013.
3
  Real-time visibility is defined for this review as “delivery scan information transmitted to the customers within about
15 minutes of the actual scan event.”
4
  Delivery personnel use the IMD scanner to scan the barcode on the cell phone and wirelessly connect the two
devices via Bluetooth technology.
                                                                1
Delivery Data Transmission                                                                   DR-MA-13-003



Scanning Connectivity

The development and deployment of cell phones for carriers has been a huge
undertaking for the Postal Service and it has made tremendous strides fielding the
initiative. However, the Postal Service has not been able to always timely transmit the
status of package delivery to customers. We found that the percentage of cell phones
not paired with scanners ranged from 29 to 55 percent between May 6 and June 20,
2013. The Postal Service deployed 101,632 cell phones during this time period. This
occurred because the cell phones and IMD scanners were not always properly
connected.

In February 2013, the Postal Service gave an IMD wireless introduction stand-up talk
describing the process for pairing cell phones with scanners for real-time delivery
visibility. To pair or connect a cell phone with an IMD scanner, the carrier must use the
scanner to read the barcode on the phone (see Figure 1) and then complete the rest of
the scanner setup process. Once the cell phone is paired with the scanner, carriers are
required to carry the cell phone at all times as they use their IMD scanner while
performing delivery or pick-up duties.

                             Figure 1. Pairing Scanner and Cell Phone




                             Source: U.S. Postal Service Office of Inspector General (OIG)
                             photograph taken April 4, 2013.

Furthermore, we visited delivery units in three districts and found that it was difficult for
delivery unit management to know whether carriers had paired their cell phones with
scanners; therefore, they could not address the issue.

This condition has occurred because:

   Refresher training is required. Carriers were not always ensuring that cell
    phone/scanner connections were successful by checking the display messages
    showing whether or not the connection was made. This could be a training issue for
    some carriers; however, when managers can monitor connectivity more easily at the
    route level, they can determine the causes of non-connectivity and address them
    appropriately.

                                                      2
Delivery Data Transmission                                                                            DR-MA-13-003




   There are equipment software issues. Neither the cell phones nor the IMD scanners
    have an indicator on the screen showing that the two devices are connected.
    Management informed us that an onscreen indicator will be a part of a software
    release in the summer of 2013.

   There is a lack of simplified reports for monitoring status. The IMDAS contains a
    report showing the total number of cell phones not paired with IMD scanners for the
    day. Postal Service Engineering officials5 had been providing a report periodically to
    area and district personnel; however, this report does not identify by route those cell
    phones that do not timely transmit data. As of June 2013, a web link is available to
    view the daily report; but it is only available to delivery unit-level and not route-level.
    The current reporting data also does not show whether a cell phone assigned to a
    carrier/route connected with the scanner, which disconnected and stayed
    disconnected. Engineering currently only tracks whether the two devices connected
    at least once during the day. Engineering officials stated this data would be helpful
    and will add the data to their future reporting, at our suggestion.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Issue guidance on conducting a refresher stand-up talk to carriers showing how to
   connect cell phones and Intelligent Mail Data Devices and noting the importance of
   the connection.

We recommend the vice president, Engineering:

2. Ensure that an onscreen connectivity indicator is installed on either carrier cell
   phones or Intelligent Mail Data Device scanners.

3. Modify the Intelligent Mail Device Acquisition System report for delivery unit
   management to provide unit- and route-specific information on cell phones and
   Intelligent Mail Data Device scanner connectivity.

Management’s Comments

Management agreed with the findings and recommendations. Management noted that
during meetings with OIG, these issues were discussed and corrective actions were
being developed by the program offices.

For recommendation 1, Delivery and Post Office Operations has taken corrective action
during July 2013. Management stated the initial stand-up talk issued on scanners has
been updated, deleting information on the previous technology and including the new

5
 Engineering officials told us they want to improve reporting for delivery unit management that would more easily
detail pairing status by route. They are planning to include this in part of a future software release.

                                                          3
Delivery Data Transmission                                                       DR-MA-13-003



IMDAS technology enhancements. Management also stated they reissued the directive
to all districts to utilize for new deployments. They also directed all districts to re-issue
the stand-up talks on cell phone pairing to previously deployed sites by the end of
August 2013. Furthermore, all future cell phone shipments from the vendor will include
"kitting" that includes the most current version of the stand-up talk.

For recommendation 2, management stated they implemented corrective action in
June 2013. They installed an onscreen connectivity indicator on the scanner to allow the
user to readily identify the status of the pairing.

For recommendation 3, Engineering stated they provided an initial website in May 2013
for area and district level delivery management to monitor cell phone use and
connectivity on a daily basis. The website is being modified with new and ongoing
developments. Management also stated in the new release of the Regional Intelligent
Mail System, they are modifying and updating the IMDAS reporting software to include
unit and route specific information on cell phone and scanner connectivity. The target
implementation date is October 2013.

See Appendix A for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Management indicated in their comments they provided a website for area and district
level delivery management to monitor cell phone and scanner connectivity in May 2013.
As of June 2013, a web link was made available to view the daily report, but the report
showed data at the delivery unit-level and not route-level. Further, the report did not
show whether a cell phone assigned to a carrier/route were connected or disconnected
with the scanners. Once management fully implements recommendation 3 it will
address these deficiencies.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Management has completed corrective actions on
recommendations 1 and 2 and these can be closed with the issuance of this report. The
OIG requests written confirmation when corrective action is completed for
recommendation 3. This recommendation should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                              4
Delivery Data Transmission                                       DR-MA-13-003



                             Appendix A: Management’s Comments




                                             5
Delivery Data Transmission       DR-MA-13-003




                             6
Delivery Data Transmission       DR-MA-13-003




                             7
Delivery Data Transmission       DR-MA-13-003




                             8
